No. 20-426
In The
Supreme Court of the United States
WILLIAM L. HUNTRESS AND ACQUEST
DEVELOPMENT, LLC,
Petitioners,
v.
UNITED STATES OF AMERICA.
Respondent.
On Petition for A Writ of Certiorari to
the United States Court of Appeals
for the Second Circuit
BRIEF OF AMICUS CURIAE
NATIONAL ASSOCIATION OF HOME
BUILDERS OF THE UNITED STATES IN
SUPPORT OF PETITIONERS
THOMAS J. WARD*
JEFFREY B. AUGELLO
NATIONAL ASSOCIATION
OF HOME BUILDERS
OF THE U.S.
1201 15th Street, N.W.
Washington, D.C. 20005
(202) 266-8200
tward@nahb.org

* Counsel of Record

i

CORPORATE DISCLOSURE STATEMENT
Pursuant to Supreme Court Rule 29.6, Amicus
National Association of Home Builders of the United
States (“NAHB”) states that it is a non-profit
501(c)(6) corporation incorporated in the State of
Nevada, with its principal place of business in
Washington, D.C. NAHB has no corporate parents,
subsidiaries or affiliates, and no publicly traded
stock. No publicly traded company has a ten percent
or greater ownership interest in NAHB.

ii

TABLE OF CONTENTS
Page(s)
INTEREST OF AMICUS CURIAE ....................... i
ARGUMENT ........................................................... 1
I. PETITIONERS CHOOSE TO DISAGREE
WITH EPA AND MET ITS WRATH .............. 1
II. THE CLEAN WATER ACT DOES NOT
COVER “POTENTIAL WETLANDS”............ 6
CONCLUSION ..................................................... 11
APPENDIX A .................................................. App. 1

iii

TABLE OF AUTHORITIES
Page(s)
Cases
Acquest Wehrle LLC v. U.S., 567 F.Supp.2d 402
(W.D.N.Y. 2008) .................................................... 3
Hawkes Co. v. U.S. Army Corps of Eng’rs,
963 F.Supp. 2d 868 (D. Minn. 2013)..................... 5
MedImmune, Inc. v. Genentech, Inc.,
549 U.S. 118 (2007) ............................................... 4
National Pork Producers Council v. U.S. EPA,
635 F.3d 738 (5th Cir. 2011) ................................. 9
Rapanos v. U.S., 547 U.S. 715 (2006) ............ passim
Sackett v. EPA, 566 U.S. 120 (2012).................... 1, 3
United States v. Acquest Transit LLC,
No. 09CV55S, 2020 WL 3042673
(W.D.N.Y. June 4, 2020) ....................................... 4
United States v. Acquest Dev., LLC, 932 F. Supp.
2d 453 (W.D.N.Y. 2013) ........................................ 6
U.S. Army Corps of Eng’rs v. Hawkes Co., Inc.,
136 S.Ct 1807 (2016) .......................................... 5-6

iv

TABLE OF AUTHORITIES (cont.)
Page(s)
Waterkeeper Alliance, Inc. v. U.S. EPA,
399 F.3d. 486 (2d Cir. 2005) ........................8, 9, 10
STATUTORY &
CONSTITUTIONAL PROVISIONS
33 U.S.C. § 1362(7)................................................... 8
33 U.S.C. § 1362(12)................................................. 9
33 U.S.C. § 1362(14)................................................. 9
33 C.F.R. § 328.3(a) ................................................... i
40 C.F.R. § 122.2 ....................................................... i
OTHER
Petition for A Writ of Certiorari,
William L. Huntress, et al. v. U.S.,
No. 20-426 (Sept. 30, 2020) ................................... 5
Indictment, The United States of America
v. William L. Huntress, Acquest Dev., et al.,
No 1:13-cr-00199 (W.D.N.Y. Sept. 19, 2013) ........ 7
Decision and Order, USA v. Acquest Wehrle, LLC,
No. 1:09-cv-00637 (W.D.N.Y. Nov. 1, 2017) ......... 4
Order, Suchyna, et al. v. U.S. Army Corps
of Eng’rs, et al., No. 1:01-cv-00763
(W.D.N.Y. June 24, 2002) ..................................... 2

v

TABLE OF AUTHORITIES (cont.)
Page(s)
Complaint, Suchyna, et al. v. U.S. Army Corps
of Eng’rs, et al., No. 1:01-cv-00763
(W.D.N.Y. Oct. 26, 2001)....................................... 2
Antonin Scalia & Bryan A. Garner, Reading Law:
The Interpretation of Legal Texts (2012) ............ 10
Letter from Arthur K. Marks, Army Corps of Eng’rs
Chief, New York Application, Evaluation Section
to Wayne I. Eisenbaum, Acquest Dev. (June 29,
2001), Acquest Wehrle v. U.S., No. 1:06-cv-00654
(W.D.N.Y. Sept. 29, 2006) .................................. 1-2
Steven Spielberg, 2002. Minority Report [Film],
20th Century Fox & DreamWorks Pictures......... 8

vi

TABLE OF APPENDICES
Page(s)
APPENDIX A,
Memorandum from Mario A. Paula,
Environmental Scientist, USEPA
Region 2 “Jurisdictional Determination
and Special Case Designation” (Nov. 21, 2002)
(original on file with author) ........................ App. 1

i

INTEREST OF AMICUS CURIAE 1
The National Association of Home Builders of the
United States (“NAHB”) is a Washington, D.C.based trade association whose mission is to enhance
the climate for housing and the building industry.
Chief among NAHB’s goals is providing and
expanding opportunities for all people to have safe,
decent, and affordable housing. Founded in 1942,
NAHB is a federation of more than 700 state and
local associations. About one-third of NAHB’s
approximately 140,000 members are home builders
or remodelers and construct approximately 80% of
all new housing units in the United States.
A large part of building and selling homes consists
of securing and preparing the land for construction.
That land often contains “waters of the United
States,” as the federal government has defined and
interpreted that term. See 33 C.F.R. § 328.3(a); 40
C.F.R. § 122.2. Due to the Environmental Protection
Agency and Corps of Engineers’ long-time policy
opposing judicial review of Clean Water Act
jurisdictional determinations landowners were
“entirely at the mercy of Environmental Protection
Agency
(“EPA”)
employees.”
Sackett
v.
Environmental Protection Agency, 566 U.S. 120, 132
Counsel of record for all parties received notice at least
10 days prior to the due date of the amicus curiae’s intention to
file this brief. Letters of consent are on file with the Clerk. No
counsel for a party authored this brief in whole or in part, and
no counsel or party made a monetary contribution intended to
fund the preparation or submission of this brief. No person
other than amicus curiae, its members, or its counsel made a
monetary contribution to its preparation or submission.
1

ii

(2012) (J. Alito concurring). The Petitioners, like
many of NAHB’s members, found themselves at this
mercy.
NAHB is a vigilant advocate in the nation’s courts.
It frequently participates as a party litigant and
amicus curiae to safeguard the constitutional and
statutory rights and business interests of its
members and those similarly situated.

1

ARGUMENT
I.

PETITIONERS CHOOSE TO DISAGREE
WITH EPA AND MET ITS WRATH.

The Petitioners’ desire to develop private property
epitomizes the struggle between regulatory agencies
and regulated landowners over the “notoriously
unclear” reach of the Clean Water Act (“CWA”).
Sackett v. EPA, 566 U.S. 120, 132 (2012) (Alito J.,
concurring). In 1997, when a Huntress-owned
company, Acquest Wehrle LLC, entered into a
purchase agreement for a commercially zoned
property on Wehrle Drive in Amherst, New York, it
had a solid understanding that jurisdictional
“waters of the United States” were not present on
the site. Its own pre-acquisition due diligence and a
1997 “negative” jurisdictional determination (“JD”)
from the Army Corp of Engineers (“Corps”) helped to
inform its purchase decision. 2 Out of an abundance
of caution, following its purchase Acquest sought a
permit for the discharge of fill material in connection
with its proposed development project. In a letter
dated June 29, 2001 the Corps’ Regulatory Branch
communicated that a permit was not necessary. It
confirmed that wetland areas on the parcel “are
isolated, non-navigable, intrastate waters that are
not subject to regulation under Section 404 of the
Clean Water Act.” Letter from Arthur K. Marks,
Army Corps of Eng’rs Chief, New York Application,
Evaluation Section to Wayne I. Eisenbaum, Acquest
A “negative” JD, as used by the Corps and EPA, is an
approved JD stating that a parcel does not contain
jurisdictional waters.

2

2

Dev. (June 29, 2001), Acquest Wehrle v. U.S., No.
1:06-cv-00654 (W.D.N.Y. Sept. 29, 2006).
In 2001, a group of individuals from the town of
Amherst brought an action under the CWA’s citizensuit provision challenging the Corps negative JD. 3
At the governments’ request the District Court
agreed to vacate the JD and voluntarily remand the
issue for reconsideration. 4 From here the
jurisdictional call was transferred to the EPA.
The EPA issued a Memorandum from Mario A.
Paula, Environmental Scientist, USEPA Region 2
“Jurisdictional Determination and Special Case
Designation”, APP. A (Nov. 21, 2002) (original on file
with author) finding a jurisdictional wetland of
approximately 9.5 acres on the Wehrle Drive site.
The attenuated hydrological connection supporting
the EPA’s JD involved an onsite “watercourse”
flowing from the wetland “through the underground
ditch along Wehrle Drive, through a culvert under
the road, and into the town ditch, from which it flows
via Ellicott Creek to the Niagara River, a
traditionally navigable water.” Id. at 9. Serious
debate surrounds the question of whether a nonnavigable tributary consisting of “man-made”
structures can help form the basis of a JD. See e.g.,
Rapanos v. U.S., 547 U.S. 715, 735-36 (2006)

Complaint, Suchyna, et al. v. U.S. Army Corps of
Eng’rs, et al., No. 1:01-cv-00763 (W.D.N.Y. Oct. 26, 2001).
3

4
Order, Suchyna, et al. v. U.S. Army Corps of Eng’rs, et
al., No. 1:01-cv-00763 (W.D.N.Y. Jun. 24, 2002).

3

(discussing that a ditch cannot be a navigable water
because a ditch is a “point source”).
Acquest disagreed with the EPA’s JD and
challenged it in 2006. The District Court dismissed
the claim, citing federal courts that have “repeatedly
confirmed” that a JD does not constitute final agency
action under the Administrative Procedure Act
(“APA”). Acquest Wehrle LLC v. U.S., 567 F.Supp.2d
402, 410 (W.D.N.Y. 2008).
Thus, despite the
agencies flip-flop on their jurisdictional positions,
the questionable basis of the EPA’s final JD and the
District Court’s entertainment of a jurisdictional
challenge raised by a group of local citizens, the
owner of the site at issue was denied its day in court.
“In a Nation that values due process, not to mention
private property, such treatment is unthinkable.”
Sackett, 566 U.S. at 132 (Alito, J., concurring).
The District Court decision forced Petitioners into a
dilemma—the same dilemma (at that time) faced by
all landowners that disagree with a JD stating that
the CWA applies. First, they could have abandoned
their development plans and steered clear of any
future land-use activities that might irk federal
regulators. Second, they could comply with the timeconsuming and expensive CWA permit application
process. 5 Thereafter, if the agency denied its permit

The average cost and time an applicant spends
preparing a CWA section 404 individual “dredge or fill” permit
application (excluding the significant losses and costs
associated with avoidance, minimization and mitigation

5

4

application and if Petitioners exhausted all
administrative remedies it could then challenge the
basis of the permit that it believes was not required.
Finally, Acquest Wehrle could have proceeded with
development activities without obtaining a CWA
permit and incur the risk of serious civil and
criminal penalties. Only after being hauled into
federal court could it then present its version of the
facts and law. To require landowners to “bet the
farm…by taking violative action” before “testing the
validity of the law” finds no support in Article III.
MedImmune, Inc. v. Genentech, Inc., 549 U.S. 118,
129 (2007).
Petitioners took the last option and were met with
the wrath of the EPA. In 2009, the EPA first sued
Aquest Wehrle for alleged unlawful activities that
occurred on the Wehrle site. The government
voluntarily dismissed that lawsuit with prejudice.
Decision and Order, USA v. Acquest Wehrle, LLC,
No. 1:09-cv-00637 (W.D.N.Y. Nov. 1, 2017).
Similarly, in 2009, the EPA brought a civil suit
against Acquest Transit for actions it took on its
Transit Road property that it claims were farming
activities. To date, there has been no judicial
determination that jurisdictional wetlands are
present at that site. United States v. Acquest Transit
LLC, No. 09CV55S, 2020 WL 3042673, at *31
(W.D.N.Y. June 4, 2020).

requirements) is $271,596 and 788 days. Rapanos, 547 U.S. at
719 (plurality opinion).

5

The EPA, however, was not satisfied with just civil
lawsuits. In 2011, the EPA filed a criminal
indictment against the Petitioners for the activities
that occurred on the Transit Road site. That
indictment was dismissed, and the government then
re-indicted the Petitioners in 2013. Cert. Pet. 6.
The EPA’s retaliation was all in response to the
Petitioners’ decision not to accept the EPA’s
determination that wetlands were present on their
properties. And that was a decision forced upon
them due to the EPA’s insistence that JDs could not
be challenged in court.
However, this court unanimously ruled that
approved JD’s are “final agency action” subject to
judicial review under the APA. U.S. Army Corps of
Engineers v. Hawkes Co., Inc., 136 S.Ct 1807 (2016).
Similar to Petitioners’ case, Hawkes involved a
landowner that had its land-use plans stymied after
the Corps issued a JD stating that its property
contained jurisdictional wetlands with a “significant
nexus” to a distant traditionally navigable water.
Hawkes challenged the JD and the case was
dismissed on the grounds that the JD was “not ‘final
agency action’” under the APA. Hawkes Co. v. U.S.
Army Corps of Eng’rs, 963 F.Supp. 2d 868, 877-78
(D. Minn. 2013). This Court affirmed the Eight
Circuit and found that the JD was reviewable. The
Court explained that:
As we have long held, parties need not await
enforcement proceedings before challenging
final agency action where such proceedings
carry the risk of “serious criminal and civil

6

penalties.” [citation omitted]. If respondents
discharged fill material without a permit, in
the mistaken belief that their property did not
contain jurisdictional waters, they would
expose themselves to civil penalties of up to
$37,500 for each day they violated the Act, to
say nothing of potential criminal liability.
[citations omitted]. Respondents need not
assume such risk while waiting for EPA to
“drop the hammer” in order to have their day
in court. [citations omitted]. Nor is it an
adequate alternative to APA review for a
landowner to apply for a permit and then seek
judicial review in the event of an unfavorable
decision.
Hawkes Co., Inc., 136 S.Ct at 1815 (2016).
Unfortunately for Petitioners this Court’s ruling in
Hawkes has come ten years too late. They have
essentially bet the farm and their freedom defending
their property rights and the “enlightened despot”
made them pay for it. Rapanos, 547 U.S. at 721
(2006).
II. THE CLEAN WATER ACT DOES NOT
COVER “POTENTIAL WETLANDS.”
As explained, in 2011, the EPA indicted the
Petitioners for “various crimes in connection with an
alleged wetlands site in the Town of Amherst, New
York.” United States v. Acquest Dev., LLC, 932 F.
Supp. 2d 453, 456 (W.D.N.Y. 2013). That indictment
was dismissed “due to the government’s interference
with the grand jury’s independence . . ..” Id. at 463.

7

In 2013, the EPA again indicted Mr. Huntress and
Acquest. In this indictment the government charged
the Petitioners with discharging dredge and fill
material into “potential wetlands” located on the
Transit Road site. Indictment, The United States of
America v. William L. Huntress, Acquest Dev., et al.,
No. 1:13-cr-00199 (W.D.N.Y. Sept. 19, 2013). The
government did not simply make a passing reference
to “potential wetlands.” It referred to “potential
wetlands” at least 10 times in the Indictment. Thus,
the 2011 indictment charged the Petitioners with
taking unlawful activities in wetlands, but in 2013
the government charged them with violations that
revolved around “potential wetlands.” Under the
CWA, this is a considerable change. The Petitioners
should be allowed to explore why it occurred.
Some, but not all wetlands fall under the jurisdiction
of the CWA. Rapanos, 547 U.S. at 742. (Scalia, J.,
plurality) (“[O]nly those wetlands with a continuous
surface connection to bodies that are 'waters of the
United States' in their own right, so that there is no
clear demarcation between 'waters' and wetlands,
are 'adjacent to' such waters and covered by the
Act.”); Id. at 779 (J. Kennedy concurring) (“[T]he
Corps’ jurisdiction over wetlands depends upon the
existence of a significant nexus between the
wetlands in question and navigable waters in the
traditional sense.”). By referencing “potential
wetlands” the government may have been referring
to areas that are wetlands, but do not currently fall
under the jurisdiction of the CWA—but may in the
future. Thus, they are “potential” because Congress
could redefine the term “navigable waters” or the
EPA or Corps could develop a new rule that

8

reinterprets the term “waters of the United States”
in a way that covers these wetlands. Equally,
“potential wetlands” could be areas that are not
currently wetlands (i.e. uplands) but due to the
climate and/or geography could turn into wetlands
in the future. Either way, it is not a CWA violation
to conduct activity in areas that are not currently
jurisdictional or are currently uplands. 6
The CWA provides that “‘navigable waters’ means
the waters of the United States . . ..” 33 U.S.C. §
1362 (7). Congress did not speak in terms of areas
that may become “waters of the United States” or
will be “waters of the United States.” To violate the
CWA, a person must add pollutants to a geographic
area that is currently a “water of the United States.”
And the government knows this because there is a
leading case from the Court of Appeals for the
Second Circuit that deals with a similar situation.
Just as Congress intended only for the regulation of
areas that are currently “navigable waters,” the
Second Circuit’s interpretation of the term
“discharge” also dictates that only actual, not
potential navigable waters are covered by the CWA.
In Waterkeeper Alliance, Inc. v. U.S. Environmental
Protection Agency, 399 F.3d. 486 (2d Cir. 2005),
petitioners challenged an EPA rule that required all

Maybe the government was predicting that the
Petitioners would commit a crime in the future. Steven
Spielberg, 2002. Minority Report [Film], 20th Century Fox &
DreamWorks Pictures.

6

9

“CAFOs 7 to either apply for NPDES permits or
otherwise demonstrate that they have no potential
to discharge.” Waterkeeper Alliance, 399 F.3d at 504
(emphasis added). The Second Circuit held that
EPA’s CAFO Rule violated the CWA because it
imposed “obligations on all CAFOs regardless of
whether or not they have, in fact, added any
pollutants to the navigable waters, i.e. discharged
any pollutants.” Id. at 505. The court sharpened its
point by explaining that “the Clean Water Act gives
the EPA jurisdiction to regulate and control only
actual discharges—not potential discharges . . ..” Id.
(emphasis in the original); see also National Pork
Producers Council v. U.S. Environmental Protection
Agency, 635 F.3d 738, 751 (5th Cir. 2011) (explaining
that the “cases leave no doubt that there must be an
actual discharge into navigable waters to trigger the
CWA’s requirements and the EPA’s authority.”).
The CWA defines discharge as “any addition of any
pollutant to navigable waters from any point source
. . ..” 33 U.S.C. § 1362(12) 8. Thus, under Waterkeeper
Alliance a person cannot violate the act unless she
causes an actual “addition of any pollutant to
navigable waters from any point source.” Id.

A CAFO is a concentrated animal feeding operation.
The CWA defines CAFOs as “point sources.” 33 U.S.C. §
1362(14).
7

In 33 U.S.C. §1362(14) Congress clearly explained that
“point sources” do not have to actually add pollutants as it
defined them as discrete conveyances “from which pollutants
are or may be discharged.”
8

10

Further, the series qualifier canon 9 of construction
advances that the adjective “actual” should be
applied to each word in the series that defines
discharge—addition, pollutant and navigable water.
Thus, because Waterkeeper Alliance holds that the
EPA may only assert CWA authority over actual
discharges, it only has jurisdiction over the actual
addition of actual pollutants to actual navigable
waters.
By inserting the word “potential” before the word
“wetland” in Count 1 of the 2013 indictment, the
government failed to allege any CWA violation
occurred in jurisdictional wetlands. Whether the
government did so intentionally or mistakenly, the
Petitioners deserve their day in court to determine
why they were charged with a crime for taking
actions in geographic areas that are not covered by
the CWA.

“When there is a straightforward, parallel construction
that involves all nouns or verbs in a series, a prepositive or
postpositive modifier normally applies to the entire series.”
Antonin Scalia & Bryan A. Garner, Reading Law: The
Interpretation of Legal Texts 127 (2012).

9

11

CONCLUSION
For the foregoing reasons, Amicus respectfully
requests that the petition for writ of certiorari be
granted.
Dated: November 2, 2020
THOMAS J. WARD*
JEFFREY B. AUGELLO
NATIONAL ASSOCIATION
OF HOME BUILDERS
OF THE U.S.
1201 15th Street, N.W.
Washington, D.C. 20005
(202) 266-8200
tward@nahb.org
* Counsel of Record

1

TABLE OF APPENDICES
Page(s)
APPENDIX A,
Memorandum from Mario A. Paula,
Environmental Scientist, USEPA Region 2
“Jurisdictional Determination and Special
Case Designation” (Nov. 21, 2002)
(original on file with author) ........................ App. 1

App. 1

APPENDIX A
Memorandum for the Record
Special Case Designation for 2220 Wehrle
Drive Site
On June 29, 2001, the Buffalo District of the US
Army Corps of Engineers (Corps) made a
determination that certain wetlands on a site known
as 2220 Wehrle Drive in Amherst, New York, were
isolated and non-jurisdictional pursuant to Section
404 of the Clean Water Act (CWA). Because of
ongoing litigation brought by neighboring
landowners challenging that non-jurisdiction
determination, a federal district court judge vacated
the Corps’ original determination at the
government’s request. The case was remanded for
reconsideration, with a new determination to be
completed no later than November 22, 2002. Region
2 has designated the parcel as a “special case” under
an existing Memorandum of Agreement (MOA) with
the Corps, allowing EPA to make the final
determination of geographic jurisdiction. The Corps
does not oppose such a designation.
Field investigations done by an interagency team led
by the Corps and Region 2 in July 2002 showed that
a large wetland of approximately 9.5 acres exists on
the project site. EPA Region 2 believes that this
wetland delineation is accurate. Additionally, EPA
Region 2 has determined that this wetland is subject
to jurisdiction under the CWA because it has a
surface hydrological connection through a
watercourse originating in the wetland, through

App. 2

ditches and culvert and into Ellicott Creek, to a
traditional navigable water. Further, the wetland
can be considered to be adjacent to Town Ditch 18
and subject to CWA jurisdiction on this basis as well.
The technical basis for this decision is contained in
the attached “Jurisdictional Determination and
Special Case Designation for Wetlands and Aquatic
Areas at 2220 Wehrle Drive, Amherst, NY.”
Based on these conclusions, EPA Region 2 has
determined that there are approximately 9.5 acres
of CWA jurisdictional wetlands on the parcel at 2220
Wehrle Drive.
/s/ Jane M Kenny
Jane M. Kenney
Regional Administrator

Nov 22, 2002
Date

USEPA Region 2
Attachment
-1-

App. 3

Memorandum for the Record

Nov. 21, 2002

Jurisdictional Determination and Special
Case Designation for Wetlands and Aquatic
Areas at 2220 Wehrle Drive, Amherst, NY
1. Executive Summary
On June 29, 2001, the Buffalo District of the US
Army Corps of Engineers (Corps) made a
determination that certain wetlands on a site known
as 2220 Wehrle Drive in Amherst, New York, were
isolated and non-jurisdictional. Pursuant to ongoing
litigation brought by neighboring landowners
challenging that non-jurisdiction determination, the
federal district court judge vacated the Corps’
original determination at the government’s request.
The case was remanded for reconsideration, with a
new determination to be completed no later than
November 22, 2002. Region 2 designated the parcel
as a “special case” under an existing Memorandum
of Agreement (MOA), allowing the Environmental
Protection Agency (EPA) to make the final
determination of geographic jurisdiction. The Corps
does not oppose such a designation.
Field investigations done by the Corps and EPA in
July 2002 showed that a large wetland of
approximately 9.5 acres exists on the project site.
EPA concludes that this wetland delineation is
accurate. EPA has determined that this wetland is
subject to jurisdiction under the Clean Water Act
(CWA) because it has a surface hydrological
connection through a watercourse originating in the

App. 4

wetland, through ditches and a culvert into Ellicott
Creek, to the Niagara River, a traditional navigable
water. Further, the wetland can be considered to be
adjacent to Town Ditch 18 and subject to CWA
jurisdiction on this basis a well. Based on these
conclusions, EPA has determined that there are
approximately 9.5 acres of CWA jurisdictional
wetlands on the parcel at 2220 Wehrle Drive.
2. Project background
This document is EPA’s CWA geographic
jurisdictional determination concerning wetlands
located on an approximately 20-acre parcel at 2220
Wehrle Drive, Amherst, NY, a suburb of Buffalo.
EPA
has
performed
this
jurisdictional
determination pursuant to the 1989 Memorandum
of Agreement Between the Department of the Army
and the Environmental Protection Agency
Concerning the Determination of the Geographic
Jurisdiction of the Section 404 Program and the
Application of the Exemptions Under Section 404(f)
of the Clean Water Act (January 19, 1989)(MOA)
-2In 1983, when EPA funded the Southeast AmherstYoungs
Road
Interceptor
project,
an
environmentally sensitive area (ESA) grant
condition was placed on the construction grant by
EPA, restricting sewer hookups from new
construction in ESAs. The wetlands on site were
specifically identified as ESAs.

App. 5

The current landowner wants to build an office park
on the site. The Town of Amherst applied for a
waiver from sewer hookup restriction for the site in
January 2002. Region 2 is currently evaluating this
waiver application.
Because the planned project would involve placing
fill in the wetlands, the Buffalo District Corps of
Engineers evaluated the jurisdictional status of the
wetlands. On June 29, 2001, the Corps of Engineers
determined that the wetlands on this site are
isolated, non-navigable, intrastate waters not
regulated under Section 404, and therefore that a
Section 404 permit would not be required to place fill
in the wetlands. This determination did not affect
the construction grant restriction; if the property
owners wish to construct sewage-generating
structures in the wetlands on site, a waiver from
EPA is still required.
Homeowners who live adjacent to the site filed a
lawsuit suit against the Corps, challenging their
“non-jurisdiction” determination. (Suchyna v. U.S.
Army Corps of Engineers, No. 01 CV 0763 S (F)(W.D.
NY)). During preliminary states of the litigation, the
plaintiffs provided new data concerning the
hydrology of the site. To enable the government to
consider this new information, the parties to the
litigation asked the court to vacate the Corps “nonjurisdictional determination” and remand the
jurisdiction decision to the government to allow
review of jurisdiction in light of the new information.
On June 24, 2002, the district court issued an order
vacating
the
Corps
“non-jurisdictional

App. 6

determination” and remanding the jurisdictional
decision to the government, with the understanding
that a final determination would be made by
November 22, 2002. In July 2002, an EPA-Corps
team visited the site to gather information about the
extent of wetlands on the site as well as their
connection to other waters. At the end of the
fieldwork, a preliminary determination was made by
the Corps that approximately 9.5 acres of wetlands
exist on the site. 1 EPA believes that the Corps
delineation of wetlands is accurate. As explained
below, EPA has concluded that the large onsite
wetland is a water of the United States subject to the
CWA.
3. Regulatory Background.
-3Under the CWA, a section 404 permit is required for
a discharge of dredge or fill material into “waters of
the United States.” The applicable regulations
define “waters of the United Sates” to include:
(1) All waters which are currently used, or
were used in the past, or may be susceptible to use
in interstate or foreign commerce, including all
waters which are subject to the ebb and flow of the
tide;
There is also a small depressional wetland, approximately
0.23 acres, on the northern border of the site, as well as two
very small “satellite” wetlands west of the large jurisdictional
wetland area. These three wetland areas are not considered
jurisdictional, as explained below.
1

App. 7

* * *
(5) Tributaries of waters identified in
paragraphs (s)(1) through (4) of this section;
* * *
(7) Wetlands adjacent to waters (other than
waters that are themselves wetlands) identified
in paragraphs (s)(1) through (6) of this section . . .
[40 CFR 230.3(s)(1), (5) and (7)]:
Wetlands are defined by regulation as: “those areas
that are inundated or saturated by surface or ground
water at a frequency and duration sufficient to
support, and that under normal circumstances do
support, a prevalence of vegetation typically adapted
for life in saturated soil conditions. Wetlands
generally include swamps, marshes, bogs and
similar areas” (40 CFR 230.3(t))
The term “adjacent” is defined by regulation as
“bordering, contiguous, or neighboring. Wetlands
separated from other waters of the United States by
man-made dikes or barriers, natural river berms,
beach dunes, and the like are ‘adjacent wetlands’”
(40 CFR 230.3(b)).
EPA has the ultimate authority to determine the
geographic scope of jurisdiction under Section 404 of
the CWA (1979 opinion of Attorney General
Benjamin Civiletti, 43 Op. Att’y Gen.15). In order to
implement this opinion, EPA and the Corps in 1989
entered into the MOA mentioned above which
outlines each agency’s responsibility regarding CWA
jurisdictional determinations. The MOA gives the
Corps primary responsibility for determining the

App. 8

extent of CWA jurisdiction when making decisions
to issue or deny permits under Section 404 of the
CWA. But EPA reserved the authority to designate
certain jurisdictional determinations as “special
cases” where EPA will make the determination as to
extent of waters of the United States. Such special
cases include project-specific situations where
significant
issues
exist
concerning
the
determination of the geographic jurisdictional scope
of waters of the US for purposes of Section 404.
The Corps’ disclaimer of jurisdiction was based in
part on its belief that there was no discrete
watercourse draining the wetland, as well as its
belief that flow through the portion of the storm
drain would in any event sever jurisdiction. Because
of the lack of clear guidance on those issues, and
because significant new information has been made
available, the
-4Corps had no objection to EPA’s declaring this a
special case and making a new jurisdictional
determination.
4. Extent of Wetlands on the Site
The Wehrle Drive site had been the subject of
several wetland delineations with disagreements on
the exact extent of wetlands. Therefore, the Buffalo
Corps requested assistance from their technical
group, the Waterways Experiment Station (WES) to
help resolve the wetland delineation boundary. WES

App. 9

forwarded the request to the Army’s Cold Region
Research and Engineering Laboratory (CRREL) for
evaluation and assistance. An interagency team was
assembled on July 16-17, 2002 to perform the
wetland delineation on the site. The team was
comprised of CRREL, Buffalo Corps, EPA and
Natural Resources Conservation Service personnel.
Prior to the site visit, all past wetland delineation
boundaries were digitized and developed into a
Geographic Information System (GIS) coverage by
CRRL personnel for viewing in the field. This
allowed the delineation field team to evaluate other
delineators’ boundaries to determine the level of
accuracy of the various delineations. Using this
baseline, the team decided to establish an
independent boundary that accurately depicted the
extent of the wetlands.
The methods and procedures applied at the Wehrle
Drive site follow current federal wetland delineation
methods required by the Corps and described in the
Environmental Laboratory Corps of Engineers
Wetland
Delineation
Manual
(1987)
and
appropriate delineation guidance and clarifications
presented in subsequent memoranda from Corps
Headquarters.
The interagency delineation team evaluated the
soils, vegetation and hydrology at various sampling
locations on the site. It was found that some of the
previous delineators (including those representing
the current property owners) had misinterpreted
hydric soil indicators and/or were uninformed about

App. 10

recent guidance regarding hydric soil interpretation.
Furthermore, it was found that some of the previous
delineators misinterpreted or misapplied the
methodologies used to determine the existence of
wetland vegetation and hydrology. Additionally,
many of the previous delineators did not survey the
boundary or use Global Positioning System (GPS) to
accurately determine its location.
The delineation boundary was first flagged by the
interagency team at 10 meter intervals along its
entire length. A GPS unit was then used to survey
the boundary, and that boundary was subsequently
compared to the previous delineations. The resulting
wetland determination indicates that a large
wetland of approximately 9.5 acres exists on the
2220 Wehrle Drive site. Near the northern border of
the site is a small (approx. 0.23 acre) depressional
wetland that was not
-5evaluated by the interagency team because previous
delineators agreed on its occurrence and location.
EPA has reviewed the site delineation done by the
interagency team in July 2002 and concurs with the
conclusion that approximately 9.5 acres of wetlands
exist on the site (see Fig. 1). This acreage value is
greater than some of the previous delineations but
the shape and form of the wetland area is similar to
the most recent previous delineation done by the
property owner’s consultant. It should be noted that
there was never a disagreement among the parties

App. 11

as to the occurrence of wetlands on site, even if the
acreage calculations have varied somewhat; rather
the disagreement was about the extent of wetlands.
These past acreage differences are not relevant for
the purpose of deciding whether the site wetlands
are jurisdictional.
5. CWA Jurisdiction Over the Site Wetlands
Physical description
The record shows that, at various times of the year,
surface water drains from the large wetland on the
site through a small watercourse, through a storm
drain grate into an underground ditch that runs for
approximately 200 feet along Wehrle Drive, then
flows under Wehrle Drive via a box culvert into
Amherst Town Ditch 18. Town Ditch 18 flows
southward for several hundred feet until it empties
into Ellicott Creek, a tributary of a navigable water,
and ultimately into the Niagara River. The Niagara
River is a traditional navigable river (The sequence
described is presented in Fig. 2).
EPA paid particular attention to the new evidence of
a watercourse connecting the large forested
wetlands to the storm drain. 2 (Fig. 3) The existence
of an ordinary high water mark is a factor which
may be used to identify and delineate a watercourse.
The Corps defines the ordinary high water mark
(OHWM) as the line on the shores established by the
The Corps, in its decision memorandum of June 29, 2001,
based on the more limited information then available to it, had
stated that “water only leaves the site via overland [emphasis
added] flow during storm events and spring snow melt.”
2

App. 12

fluctuations of water and indicated by physical
characteristics such as:
* a clear natural line impressed on the bank;
* shelving;
* changes in the character of the soil;
* destruction of terrestrial vegetation;
-6* the presence of litter and debris;
* or other appropriate means that consider the
characteristics of the surrounding areas. (33 CFR
328.3(e))
The site inspection in July 2002 revealed that the
watercourse draining the wetland at the southern
end of the site has several of the above
characteristics (a clear natural line impressed on the
bank, changes in the character of the soil,
destruction of terrestrial vegetation and the
presence of litter and debris) which indicate that it
contains an OHWM (See Fig. 3).
While rainfall in the vicinity and snowmelt are likely
major contributors to the flow in the watercourse,
the evidence (dated videotape and still photographs
provided by plaintiffs/adjacent homeowners) shows
flow throughout various times of the year, and not
just
immediately
after
rainfall.
This
videotape/photographic evidence indicates flow
through the water and down through Ditch 18 for 20
dates from February 11, 2001 to April 14, 2002; flow
through the watercourse was not found on one date;

App. 13

ice cover in the watercourse obscured flow for
another of the dates. The extended drought of 2001
stopped the flow through the watercourse for a
number of the warmer months, and no observations
were recorded.
In order to place these flow observations in context,
EPA reviewed existing rainfall data from the
National Weather Service at Buffalo Airport (NWS,
Buffalo, NY 2002) and daily streamflow statistics for
a station in Ellicott Creek (USGS #04218518),
downstream of the project site and Ditch 18 (USGS
Daily Streamflow Statistics, NY). Evaluating these
data for the dates of the videotaped events, it
appears that except for a few time periods (Feb. 11,
2001 and Feb. 21, 2002), the recorded precipitation
and downstream flow data are consistent with
normal climatological data for the time of the year.
Therefore, it appears that flow in the watercourse
did not occur just during extreme climatological
events (i.e, extremely heavy rainfall or snowmelt).
Moreover, the watercourse begins inside the large
forested wetland, where observations have shown
that standing water occurs during significant
portions of the year, including during the early
portion of the growing season (the previous
delineators reported standing water on portions of
the site during the growing season). EPA personnel
observed standing water during the site visits of
May 7, 2001 and July 16-17, 2002. Both site visits
occurred after periods of below average rainfall; the
May 2001 observation came after the driest April in
66 years and the 4th driest in 100 years (National

App. 14

Weather Service, Climate Summary for April 2001).
This information indicates that the watercourse may
begin at, or slightly below, the water table in the
forested wetland. Fig. 4, taken on May 7, 2001,
shows standing water in the forested wetlands
onsite. In any event, whether the watercourse flows
continually throughout the year, only in response to
-7significant rainfall, or something in between is
immaterial under the regulations; EPA’s regulations
do not define tributaries in terms of flow nor does 40
CFR 230.3(s)(5) distinguish between tributaries that
flow perennially and those that flow intermittently
or ephemerally.
We also reviewed data concerning the historical
hydrology of the area. The plaintiffs provided
detailed information, including aerial photos,
blueprints and US Geological Survey maps of the
site dating from the 1920s to the present. Many of
the maps and photos were apparently not available
to the Corps when it was makings its determination
as to whether there was an historic surface
connection between the site wetlands and navigable
waters. This information (in particular a 1927 aerial
photograph of the site and adjacent areas) appears
to show that a “feeder” stream entered the site on
the central-western portion, passed through the
wetland complex, then exited (as an “outlet” stream)
from the southeast portion of the site. That outlet
stream then flowed in a southerly direction until it
emptied into a tributary to Ellicott Creek. Figure 3,

App. 15

an USGS map from 1948 also clearly shows a stream
entering the site, flowing through the site, then
exiting and flowing south until it empties into
Ellicott Creek. During the July 2002 site visit,
portions of the remnant outlet stream, now
surrounded by development, were observed. (It
should be noted that this outlet stream is not in the
same location as the present watercourse draining
the wetland to the south.)
The information provided shows that development
over the past 40-50 years truncated both the feeder
and outlet channel and Ditch 18 may have been
constructed in part to remove drainage from the site.
From the information reviewed, it appears that the
site wetlands were historically connected via surface
water flow to a “water of the U.S.” and that the
current ditch along Wehrle Drive and Town Ditch 18
effectively reroute that historical flow for a short
distance before returning it to Ellicott Creek.
6. Functions and Values of Wetlands on the
Wehrle Drive Site
While it is not necessary to demonstrate the value of
a particular adjacent wetland in order to establish
jurisdiction (United States v. Riverside Bayview
Homes, 474 U.S. 121 (1985)), the record shows that
the wetlands onsite do have considerable ecological
value. They appear to provide a variety of functions,
including stormwater storage, water quality
improvement and habitat complexity. The filling of
these wetlands as a result of project construction

App. 16

would have a negative impact on the site and on
downstream waters of the US.
The following is a short description of the site’s
wetlands functions, as well as what impacts could be
expected if the project is constructed as currently
planned.
-8a. Stormwater Storage- Since the site wetlands (and
to some extent the undeveloped uplands) provide
floodwater storage, their filling would mean that
stormwater would go directly into the area’s storm
sewers, then into a ditch leading to Ellicott Creek
and further downstream to the Niagara River. This
could result in increased flooding downstream.
b. Water Quality- The stormwater storage function
of the project site allows pollutants and nutrients in
the received sediment to settle out and to be
removed by the system, maintaining and improving
downstream water quality.
c. Habitat Complexity- Mature forested wetlands,
which form the majority of the wetlands on-site, are
highly structured habitats which offer living space
for an abundance and diversity of organisms.
Specifically, forested wetlands provide a large area
of canopy which may be used by birds (especially
neotropical migrants), mammals, and insects; as
well as shrub and herb layers, leaf litter, and usually
numerous dead and decaying logs. These areas are
difficult to replace due to the large number of years

App. 17

required for late-successional tree species to reach
maturity. The loss of these wetlands would have a
negative effect on the area’s ecosystem, particularly
in light of the relatively rarity of this habitat in the
area, a heavily-developed suburb of Buffalo.
7. Conclusions About CWA Jurisdiction.
The record shows that the large wetland on the site
directly touches and flows into the onsite
watercourse. That is, it is adjacent to the onsite
watercourse, as well as functioning as a tributary to
the watercourse. The record additionally shows that
the onsite watercourse has the indicia of a regulated
watercourse. Its flow then goes, for a brief distance,
through the underground ditch along Wehrle Drive,
through a culvert under the road, and into the town
ditch, from which it flows via Ellicott Creek to the
Niagara River, a traditional navigable water. Thus,
the onsite watercourse is part of the tributary
system to navigable waters, and therefore the
wetland is adjacent to a tributary to navigable
waters, as well as functioning as part of that
tributary system. The courts have generally held
that the fact that a tributary is routed for part of its
length through a pipe or other manmade conveyance
does not destroy its character as a tributary.
Accordingly, under the facts here, where the wetland
has historically flowed to Ellicott Creek, and
continues to do so, and where that flow is capable of
transporting
pollutants downstream,
it is
appropriate to consider the onsite watercourse part
of the tributary system, notwithstanding the facts

App. 18

the flow is briefly routed through the underground
ditch and under the road.
Even if, for sake of argument, the underground ditch
and onsite watercourse were not considered to be
part of the tributary system, the wetland is still
adjacent to Town Ditch 18 because it is neighboring,
and hydrologically connected, to the
-9Ditch, and the Ditch is a tributary to navigable
waters.
For the reasons above, EPA accepts the results of the
wetland delineation done by the interagency team in
July 2002. EPA also concludes that the large
wetland on the 2220 Wehrle Dive site is adjacent to,
and is part of, the tributary system to traditional
navigable waters, and hence jurisdictional under
230.3(s)(1), (5), and (7), and that the watercourse
draining it is a jurisdictional tributary under
230.3(s)(1) and (5). 3 Accordingly, the large wetland
and the water course are “waters of the US” subject
to regulation under the CWA.

230.3(s)(7) excepts wetlands which are adjacent to waters
that are themselves wetlands. Therefore, since the only basis
in the record for asserting jurisdiction over the “satellite”
wetlands west of the large wetland and the small depressional
wetland on the northern part of the site would be their
adjacency to the large wetland, these small wetlands are not
included in this jurisdictional determination. They are,
however, still covered by the grant condition, as that is not
limited to CWA wetlands.
3

App. 19

/s/ Mario A. Paula
Mario A. Paula, Environmental
Scientist Wetlands Protection
Section, USEPA Region 2
-10-

11/21/02
Date

App. 20

References cited
Corps of Engineers, Buffalo District, June 29, 2001
File Memorandum.
Corps of Engineers. Nationwide Permits Federal
Register Notice. March 2000.
Environmental Laboratory. 1987. “Corps of
Engineers wetlands delineation manual,” Technical
Report Y-87-1. U.S. Army Engineer Waterways
Experiment Station, Vicksburg, MS.
National Weather Service. Monthly Climate
Summaries and Preliminary Climatological Data,
Buffalo, N.Y.
David J. Seeger.(Plaintiffs attorney). February 6,
2002 letter to US DOJ.
US Geological Survey. Daily Streamflow Statistics.
Ellicott Creek below Williamsville.
Waterways Experiments Station. Corps of
Engineers. 2002. WRAP request for Buffalo District
for determination of wetland boundary at Wehrle
Road, Amherst, New York. Aug. 28, 2002.

App. 21

List of Figures
1. Extent of jurisdictional wetland on site (from
WES 2002 report)
2. Path of surface water from Wehrle Drive to
Ellicott Creek
3. Picture of watercourse at southern end of site
and stormdrain into which it flows
4. Standing water in Wehrle Drive wetlands (May
7, 2001).
5. USGS map (1946) showing streams entering and
exiting wetland area on project site and ending in
Ellicott Creek.
*Listed images could not be reproduced.*

